No. 20-472
IN THE

Supreme Court of the United States
HOLLYFRONTIER CHEYENNE REFINING,
LLC, et al.,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
MOTION AND BRIEF FOR THE AMERICAN
FUEL & PETROCHEMICAL
MANUFACTURERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER
Certificate of Compliance
Pursuant to Rule 33.1(h), I hereby certify that the Motion for Leave to File an
amici curiae brief of the American Fuel & Petrochemical Manufacturers and the
Brief of the American Fuel & Petrochemical Manufacturers as amici curiae in
support of Petitioners in the above-captioned case contain 239 words and 4,817
words, respectively, excluding the parts that are exempted by Rule 33.1(d).
Nov. 12, 2020

_______________________
Andrew M. Grossman

